U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 18, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Marcus Walker v. United States of America,
S.Ct. No. 21-102
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 22,
2021, and placed on the docket on July 26, 2021. The government’s response is due on August
25, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 24, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0102
WALKER, MARCUS
USA

JOHN PATRICK ELWOOD
ARNOLD & PORTER KAYE SCHOLER LLP
601 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-942-5992
JOHN.ELWOOD@ARNOLDPORTER.COM
LINDA DALE HOFFA
DILWORTH PAXON LLP
DILWORTH PAXSON, LLP
1500 MARKET STREET
SUITE 3500 E
PHILADELPHIA, PA 19102
215-575-7000

